July 20, 2021

DIRECT DIAL

216.696.4235 | dustin.rawlin@tuckerellis.com

VIA ELECTRONIC FILING AND FEDERAL EXPRESS
Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543-0001
sharris@supremecourt.gov
Re: Motion to extend time to respond to petition for writ of certiorari in
Amber Brooks, et al. v. Mentor Worldwide LLC
S. Ct. Case No. 20-1822
Dear Sir:
I represent Respondent, Mentor Worldwide LLC (“Mentor”), in the above-referenced
matter. The Petition for Writ of Certiorari in the above-referenced entitled case was filed on June
25, 2021, and docketed July 1, 2021. Mentor’s brief in opposition to the Petition for Writ of
Certiorari is currently due on or before August 2, 2021. Pursuant to Rule 30.4 of the United States
Supreme Court, I am requesting a thirty (30) day extension of time to file a brief in opposition to
the Petition for Writ of Certiorari.
I am counsel of record in the above referenced matter and busy with work-related travel
and briefing in other cases. In addition, my colleague and co-counsel on this matter, Jeffrey C.
Sindelar Jr. has a pre-planned family vacation from July 17 until July 25, 2021.
Accordingly, I am respectfully requesting a thirty (30) day extension of time, until
September 1, 2021, to file a brief in opposition to the Petition for a Writ of Certiorari.
Thank you for your time and attention to the foregoing.

5215897.1

Motion to extend time to respond to petition for writ of certiorari in
Amber Brooks, et al. v. Mentor Worldwide LLC
S. Ct. Case No. 20-1822
July 20, 2021
Page 2

Respectfully submitted,
TUCKER ELLIS LLP
s/Dustin B. Rawlin
Dustin B. Rawlin
Attorney for Respondent
Mentor Worldwide LLC
cc: Anthony Anderson Benton Dogali (Counsel of Record for Petitioners)
DBR:jcs

5215897.1

